No. A-

IN THE
Supreme Court of the Hnited States

 

FACEBOOK, INC. AND TWITTER, INC.,
Applicants,
v.

SUPERIOR COURT OF SAN FRANCISCO COUNTY,
DERRICK D. HUNTER, AND LEE SULLIVAN,

Respondents.

 

CERTIFICATE OF SERVICE

 

Thereby certify that I am a member in good standing of the bar of this Court and
that on this 26th day of November, 2019, I caused a copy of the Application for an
Extension of Time Within Which to File a Petition for a Writ of Certiorari to the
Supreme Court of California to be served by third-party commercial carrier on the
individuals identified below, and caused an electronic version to be transmitted to the
individuals identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties
required to be served have been served.

Counsel for Respondents:
Nathan Quigley Bicka Barlow
OFFICE OF THE SAN FRANCISCO 2358 Market Street, 2nd floor

County DISTRICT ATTORNEY San Francisco, CA 94114
850 Rhode Island Street (415) 553-4110
North Building, Suite 400N bickabarlow@sbcglobal.net
San Francisco, CA 94103
(628) 652-4000 Susan Kaplan
Nathan.quigley@sfgov.org 214 Duboce Avenue

San Francisco, CA 94103

Clerk of the Court (415) 271-5944
Court of Appeal sbkapl@yahoo.com
First District, Div. 5
350 McAllister Street

San Francisco, CA 94102
Hon. Charles Crompton Jose Umali

Superior Court of the City and 507 Polk Street, Suite 340
County of San Francisco San Francisco, CA 94102
Court Hall of Justice (415) 398-5750

850 Bryant Street, Department 19 Umali-law@att.net
San Francisco, CA 94103

  
   

. Christiansen
